      OVERSEAS ABSENTEE BALLOT HANDLING IN DOD


Report No. D-2001-145                      June 22, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD Home Page at: www.dodig.osd.mil or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Evaluations

  To suggest ideas for or to request future evaluations, contact the Audit Followup
  and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DMDC                  Defense Manpower Data Center
FVAP                  Federal Voting Assistance Program
FPCA                  Federal Post Card Application
GAO                   General Accounting Office
MODIS                 Military Origin-Destination Information System
MPS                   Military Postal Service
ODIS                  Origin-Destination Information System
                      Office of the Inspector General, DoD
Report No. D-2001-145                                                    June 22, 2001
  (Project No. D2001LF-0058)

                 Overseas Absentee Ballot Handling in DoD

                               Executive Summary

Introduction. On November 28, 2000, the Secretary of Defense requested that the
Office of the Inspector General, DoD, review the procedures for handling overseas
absentee ballots, ballot cancellation and postmarking procedures, and any discrepancies
between those procedures and how they were implemented. The Secretary stated that
he wanted to make sure that DoD had done everything in its authority to ensure that
active duty personnel, their dependents, and DoD civilians were encouraged to vote and
understood the absentee ballot process.

The Uniformed and Overseas Citizens Absentee Voting Act (the Act) requires States to
permit absent uniformed Service voters and overseas voters to use absentee registration
procedures and to vote by absentee ballot in Federal elections. Executive Order 12642,
“Designation of the Secretary of Defense as the Presidential Designee,” assigns
primary responsibility for Federal functions of the Act to the Secretary of Defense.
DoD Directive 1000.4, “Federal Voting Assistance Program (FVAP),” September 4,
1996, delegates authority to the Director of Administration and Management, Office of
the Secretary of Defense, to carry out the Federal Voting Assistance Program
responsibilities of the Secretary of Defense.

The goals of the Federal Voting Assistance Program are to inform and educate U.S.
citizens worldwide of their right to vote, foster voting participation, and protect the
integrity of the voting process. The Federal Voting Assistance Program developed a
variety of comprehensive resources that are useful to voting assistance officers and
potential absentee voters. The Federal Voting Assistance Program also does
considerable work with the States to simplify absentee voting procedures. In addition,
for the November 2000 election, the Federal Voting Assistance Program provided
training sessions to a worldwide network of voting assistance officers. As of
September 2000, there were about 257,800 active duty personnel, 117,600 dependents
(age 18 and over) of active duty personnel, and 86,600 DoD civilians located overseas.
DoD faces the same challenges as the entire United States in its attempt to increase
voting participation, especially among the younger population of eligible voters. The
DoD challenges are magnified because of the worldwide dispersion of active duty
personnel.

Objectives. The primary evaluation objective was to assess the effectiveness of
overseas absentee voting procedures and policies within DoD. Specifically, we
evaluated pertinent procedures and policies, including standard cancellation and
postmarking procedures, and determined whether discrepancies existed between the
procedures required by DoD regulations and how those procedures were implemented.

Results. The Federal Voting Assistance Program and the Services’ voting assistance
programs provided valuable information and assistance to many overseas active duty
military personnel, DoD civilians, and their dependents for the November 2000
election. For the 1,267 respondents who completed our questionnaire on the overseas
absentee balloting process, participation in the November 2000 election was higher than
the Federal Voting Assistance Program-reported voting rate for overseas military
absentee voters in the 1996 Federal election. However, the Services’ implementation
of the program could be improved, as one-third of the active duty respondents stated
that they understood the absentee ballot process only to a small extent or not at all.
Specifically, DoD should:

       •   ensure more effective oversight of its voting assistance program;

       •   improve consistency in Service implementation of voting assistance
           programs, to include voter encouragement and understanding of the absentee
           ballot process;

       •   ensure that unique issues related to Navy ship and remotely deployed unit
           operations are addressed in a timely manner, when possible; and

       •   continue to work with the States to resolve or focus attention on issues
           related to standardization and simplification of the absentee ballot process,
           voter residency issues, feedback to voters, and increased use of technology.

Improving the DoD voting assistance program and working with the States will help
DoD ensure that potential overseas absentee voters are provided the information needed
to exercise their right to vote if they choose to do so. See the Finding section for
details of the evaluation results.

Several bills are being considered by Congress to improve the absentee voting process.
We fully endorse any Federal or State actions that would lead to more uniform and
simple voting procedures and requirements, thus reducing the burden on DoD voting
assistance officers and absentee voters.

Our review of policies and procedures for moving first-class mail at selected overseas
locations uncovered no systemic Military Postal Service problems that would have
unreasonably affected ballot handling. However, the timelines used by some States for
mailing out voting materials could present problems for overseas voters, considering
the reality of moving first-class mail to and from overseas locations. See the Finding
section for a discussion of that issue and Appendix F for details on our review of postal
operations.

Summary of Recommendations. We recommend that the Director of Administration
and Management, in coordination with the Assistant Secretary of Defense (Force
Management Policy), revise DoD guidance to require the Services to ensure that all
DoD overseas absentee voters are supported by Unit Voting Assistance Officers and to
specify the maximum number of eligible voters that a Unit Voting Assistance Officer
should support. We also recommend that the Director of Administration and
Management, in coordination with the Assistant Secretary of Defense (Force
Management Policy), provide oversight of Service policies to ensure consistency with
DoD regulations. Those policies should establish controls to ensure program
continuity, expeditious dissemination of voting information and materials, designation
of Senior Installation Voting Officers, and provision of training on absentee voting
procedures to voting assistance officers and overseas military members.

We also recommend that the Secretaries of the Military Departments develop Unit
Voting Assistance Officer guidance for ships, submarines, and remotely deployed units
                                            ii
in planning voting assistance strategies prior to known deployments. We recommend
that the Inspectors General of the Army and the Navy include their Service’s voting
assistance program as an item for specific review. We also recommend that the Federal
Voting Assistance Program continue to coordinate with State election officials to
resolve absentee voting issues related to standardization and simplification of the
overseas absentee ballot process, voter residency requirements, feedback to voters on
the status of balloting materials, and increased use of technological solutions for
completing the absentee ballot process.

Management Comments. The Assistant Secretary of Defense (Force Management
Policy), in coordination with the Director of Administration and Management, stated
that the Federal Voting Assistance Program has a proven record of meeting the voting
needs of active duty military personnel and overseas citizens on a non-partisan basis.
The 75 percent voting rate for military personnel in the November 2000 election
showed the overall success of the program. The Assistant Secretary agreed, however,
that some aspects of DoD voter assistance efforts could be improved. The Assistant
Secretary concurred with our recommendations and agreed to revise procedures to
ensure voting assistance support is provided to all active duty personnel and their family
members, including deployed, dispersed, and tenant organizations. The Assistant
Secretary offered an alternative proposal to specify the maximum number of eligible
voters that a Unit Voting Assistance Officer should support. He stated that it is not
feasible for his office or the Federal Voting Assistance Program to make this
determination, and he will defer to the Services on this issue. The Assistant Secretary
also commented that the Federal Voting Assistance Program will review Military
Department voting plans and policies to ensure they are consistent with the DoD
Directive.

The Assistant Secretary stated that the Federal Voting Assistance Program will continue
to work with the States to improve absentee voting procedures. Issues will include
voter residency requirements, acknowledgement of receipt of absentee registration
materials, and expedited handling of balloting materials. The Assistant Secretary also
stated that the Federal Voting Assistance Program will continue to pursue new
technology to improve the absentee registration and voting processes. See the Finding
section for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.
Evaluation Response. The comments from the Assistant Secretary of Defense (Force
Management Policy) are responsive and additional comments are not required.




                                           iii
Table of Contents

Executive Summary                                                  i


Introduction
     Background                                                    1
     DoD Policies and Procedures                                   2
     Objectives                                                    4
     Limitations on Use of Report Data                             4
     Postal Operations                                             5

Finding
     Overseas Absentee Ballot Handling in DoD                     6

Appendixes
     A. Evaluation Process
         Scope and Methodology                                    30
         Prior Coverage                                           33
     B. Secretary of Defense Request Memorandum                   34
     C. Commands, Installations, Ships, and Submarines Visited    35
     D. Active Duty Overseas Absentee Ballot Questionnaire        38
     E. Unit Voting Assistance Officer Overseas Absentee Ballot
          Questionnaire                                           41
     F. Military Postal Service Procedures                        43
     G. Absentee Voter Assistance Best Practices                  46
     H. Report Distribution                                       48

Management Comments
     Assistant Secretary of Defense (Force Management Policy)     50
Background
    On November 28, 2000, the Secretary of Defense requested the Office of the
    Inspector General, DoD, to review the overseas absentee ballot process.
    Specifically, the Secretary stated he wanted to make sure that DoD had done
    everything in its authority to ensure that DoD active duty military personnel,
    their dependents, and DoD civilians were encouraged to vote and understood the
    absentee ballot process. He also wanted to make sure that ballots mailed
    through the Military Postal Service (MPS) were processed promptly and
    properly. The Secretary of Defense memorandum is in Appendix B.

    The General Accounting Office (GAO) was tasked by the House and Senate
    Armed Services Committees to review the DoD implementation of the
    Uniformed and Overseas Citizens Absentee Voting Act (the Act). Inspector
    General, DoD, and GAO representatives coordinated their overseas efforts for
    meeting with Service members, DoD civilians, and dependents; interviewing
    voting assistance officers; and reviewing postal operations. Included in the
    congressional tasking to GAO was a request to determine the number of
    overseas DoD absentee ballots that were disqualified and why they were
    disqualified. In addition, GAO is conducting other reviews focused on issues
    related to people, processes, and technologies of the election process and related
    to voting accessibility for people with disabilities.

    Representatives from the Office of the Inspector General, DoD, and GAO
    administered questionnaires to 1,267 active duty personnel, DoD civilians, and
    their dependents and 153 Unit Voting Assistance Officers at the locations shown
    in Appendix C. A separate questionnaire was designed for each group.
    Dependents of active duty military personnel and dependents of DoD civilians
    were included in the dependent group. The questionnaires focused on an
    individual’s awareness and perceptions of the absentee ballot process, voting
    resources, and the effectiveness of Unit Voting Assistance Officers. After
    completion of the questionnaires, all of the respondents participated in group
    discussions and were asked questions related to their experiences with overseas
    absentee voting.

    Congressional Interest in Resolving Absentee Ballot Concerns. As of
    May 2001, Congress was considering several bills designed to correct some of
    the difficulties reported after the November 2000 election. The legislative
    proposals address many concerns, including:

           •   State acceptance of absentee ballots;

           •   State voter residency requirements for overseas active duty
               personnel;

           •   voter registration;

           •   use of buildings on military installations as polling locations; and

           •   improving voting technology.


                                         1
    Uniformed and Overseas Citizens Absentee Voting Act. The Act (section
    1973ff, title 42, United States Code) requires States to permit absent uniformed
    Service voters and overseas voters to use absentee registration procedures and to
    vote by absentee ballot in Federal elections. The Act also states that the
    President shall designate the head of an Executive department to have primary
    responsibility for Federal functions of the Act. On June 8, 1988, the President
    issued Executive Order 12642, “Designation of the Secretary of Defense as the
    Presidential Designee,” under the Act.

    Presidential designee responsibilities include working with State and local
    election officials to implement the Act; prescribing an official post card form to
    be used by absentee voters for registering to vote and for requesting an absentee
    ballot; distributing material on State absentee voting procedures; and reporting
    on the effectiveness of the voting assistance effort. Many States and territories
    have enacted laws allowing citizens covered by the Act to register and vote
    absentee in State and local elections.

    Absentee Ballot Mailing Privileges. Section 3406 of title 39, United States
    Code, states that balloting materials under the Act shall be carried expeditiously
    and free of postage. Balloting materials may be mailed at branch post offices at
    camps, posts, bases, and stations of the Armed Forces established outside the
    United States.


DoD Policies and Procedures
    Secretary of Defense memorandum, “Federal Voting Assistance
    Program - 2000-2001,” November 2, 1999, announced the DoD Voting Action
    and Information Support Plans for 2000-2001. The plans address
    implementation of the Federal functions of the Act and dissemination of
    information, guidance, and tasks related to the voting program. The plans also
    place special emphasis on Service command support.

    DoD Directive 1000.4, “Federal Voting Assistance Program (FVAP),”
    November 25, 1980, updated September 4, 1996, delegates authority to the
    Director of Administration and Management, Office of the Secretary of
    Defense, to carry out FVAP responsibilities of the Secretary of Defense and
    establishes voting assistance guidelines for DoD Components. FY 2000 funding
    for FVAP was $4.9 million and included contracting, other services, and
    salaries. FVAP implements the Act by providing absentee voting information
    and materials to potential voters worldwide using a variety of resources,
    including the FVAP 2000-01 Voting Assistance Guide, Voting Information News,
    the FVAP web site, the voting information center, and a toll-free telephone
    service.

    The FVAP 2000-01 Voting Assistance Guide includes information on the use of
    the Federal Post Card Application (FPCA) for voter registration or requesting
    an absentee ballot and the Federal Write-In Absentee Ballot. The Guide also
    outlines State-by-State registration and voting procedures. Voting Information
    News is a monthly newsletter that contains information on elections. The
    newsletter is sent primarily to all voting assistance officers. The FVAP web site

                                         2
offers additional information on the absentee voting procedure. The web site
provides Federal and State election information and links to Federal agencies,
State election organizations, Military Departments, and overseas organizations.
For example, the web site includes information on who can vote using absentee
ballots and how to register and apply for an absentee ballot using the FPCA.
The voting information center is an automated telephone system offering
election information. It includes candidate information and connections to the
offices of elected officials. The toll-free telephone service is an ombudsman
service that puts callers in touch with FVAP. Additional FVAP activities
include the production and worldwide distribution of print and broadcast voter
education information and the training of voting assistance officers.

DoD Directive 4525.6, “Single Manager for Military Postal Service,”
May 5, 1980, establishes the Secretary of the Army as the single manager for
military postal matters for DoD and improves the effectiveness and economy of
the MPS by integrating operating and transportation policy under the MPS
Agency.

DoD Instruction 4525.7, “Military Postal Service and Related Services,”
April 2, 1981, supplements DoD Directive 4525.6 and U.S. Postal Service
manuals related to the operation of the MPS and the transportation of mail
within DoD.

Army Guidance. Army Regulation 608-20, “Voting by Personnel of the
Armed Forces,” August 15, 1981, establishes policy, responsibilities, and
procedures for Army implementation of FVAP. The Regulation provides basic
voting information needed by Armed Forces personnel, civilians officially
attached with the Armed Forces overseas, and their dependents. The Regulation
also establishes and assigns responsibilities for administration of the Army
Voting Assistance Program to commanders at the company level and above.
Army Adjutant General memorandum, “Instructions for Conducting the 2000-
2001 Army Voting Assistance Program,” March 1, 2000, implements FVAP,
the Army Voting Assistance Program, DoD Directive 1000.4, and Army
Regulation 608-20. The memorandum establishes and assigns specific Army
voting responsibilities to the Adjutant General, commanders of major Army
commands, installation commanders, and unit commanders down to company
and detachment levels.

Navy Guidance. Bureau of Naval Personnel Notice 1742
(BUPERSNOTE 1742), “CY-2000 Navy Voting Program,” January 19, 2000,
provides guidance for the Navy Voting Program. The CY 2000 Navy Voting
Plan, December 17, 1999, provides a checklist of Navy voting milestones and
completion dates. The Navy Voting Plan does not establish specific command
responsibilities for implementing the Navy Voting Program.

Air Force Guidance. Air Force Instruction 36-3107, “Voting Assistance
Program,” May 31, 1994, implements the Act and DoD Directive 1000.4. It
informs personnel about voting and the opportunities to exercise the right to
vote, including opportunities for absentee voting. The Instruction establishes
specific voting assistance responsibilities down to the Senior Installation Voting
Officer and unit voting counselors. Air Force Personnel Flight Memorandum,


                                     3
     “2000/01 Air Force Voting Plan,” January 19, 2000, supplements the
     Instruction and the FVAP Voting Action Plan for 2000-2001. The Air Force
     Voting Plan reiterates specific responsibilities for Air Force headquarters,
     commanders of major commands and installations, installation directors of
     personnel, and voting assistance officers for each level of command.

     Marine Corps Guidance. Marine Corps Order 1742.1 (MCO 1742.1),
     “Absentee Voter Registration Program,” March 31, 1995, implements DoD
     Directive 1000.4 and the Navy Voting Program. MCO 1742.1 requires
     commanding officers at all echelons of command to provide assistance to
     absentee uniformed Service voters in the exercise of their voting privilege.


Objectives
     The primary evaluation objective was to assess the effectiveness of overseas
     absentee voting procedures and policies within DoD. Specifically, we evaluated
     pertinent procedures and policies, including standard cancellation and
     postmarking procedures, and determined whether discrepancies existed between
     the procedures required by DoD regulations and how those procedures were
     implemented. See Appendix A for a discussion of the evaluation scope and
     methodology and for prior coverage.


Limitations on Use of Report Data
     The results of the questionnaires discussed in this report are generally
     summarized by active duty respondents and by DoD civilian/dependent
     respondents. The time constraints of the evaluation did not permit presentation
     in this report of further in-depth analysis of the questionnaire results or of the
     comments provided during the discussion groups.
     The organizations visited and the individual participants were not randomly
     selected; therefore, results cannot be statistically projected to the universe. The
     questionnaire results are descriptive and are not intended to be used for
     comparative purposes. See Appendix D for the active duty questionnaire and
     Appendix E for the Unit Voting Assistance Officer questionnaire used in our
     evaluation. The DoD civilian and dependent questionnaires were very similar to
     the active duty questionnaire.

     The questionnaire and discussion group responses reflect the perceptions of
     active duty personnel, DoD civilians, and their dependents concerning the
     absentee ballot process; the accuracy of perceptions cannot be validated. The
     evaluation focused on the DoD program. The Office of the Inspector General,
     DoD, does not have authority over the non-DoD organizations involved in the
     process and this limited the work done to research issues related to voting
     procedures and policies that DoD does not control.




                                          4
Postal Operations
     Our review of policies and procedures for moving first-class mail at selected
     overseas locations uncovered no systemic MPS problems that would have
     unreasonably affected ballot handling. In addition, our review of postal records
     for the election time frame revealed no major disruptions. However, the
     timelines used by some States for mailing out voting materials could present
     problems for overseas voters, considering the reality of moving first-class mail
     to and from overseas locations. See the Finding section for a discussion of that
     issue and Appendix F for details on our review of postal operations.




                                         5
            Overseas Absentee Ballot Handling in
            DoD
            Using a variety of resources, FVAP and the Services’ voting assistance
            programs provided valuable information and assistance to many overseas
            active duty military personnel, DoD civilians, and their dependents for
            the November 2000 election. Additionally, FVAP provides training to
            and works through a worldwide network of voting assistance officers.
            For those respondents who completed our questionnaire on the overseas
            absentee ballot process, participation in the November 2000 election was
            higher than the FVAP-reported voting rate for overseas military absentee
            voters in the 1996 Federal election. However, the Services’
            implementation of the program could be improved, as one-third of the
            active duty respondents stated that they understood the absentee ballot
            process only to a small extent or not at all. Specifically, DoD should:

            •   ensure more effective oversight of its voting assistance program;

            •   improve consistency in Service implementation of voting assistance
                programs, to include voter encouragement and understanding of the
                absentee ballot process;

            •   ensure that unique issues related to Navy ship and remotely deployed
                unit operations are addressed in a timely manner, when possible; and

            •   continue to work with the States to resolve or focus attention on
                issues related to standardization and simplification of the absentee
                ballot process, voter residency issues, feedback to voters, and
                increased use of technology.

            Improving the DoD voting assistance program and working with the States
            will help DoD ensure that potential overseas absentee voters are provided
            the information needed to exercise their right to vote if they choose to do
            so.


Benefits of the Voting Assistance Program
     FVAP and the Services’ voting assistance programs provided valuable
     information and assistance to many overseas active duty personnel, DoD
     civilians, and their dependents during the November 2000 election. As of
     September 2000, there were about 257,800 active duty personnel,
     117,600 dependents (age 18 and over) of active duty personnel, and
     86,600 DoD civilians located overseas. The voting rate for active duty
     personnel, DoD civilians, and their dependents who completed our
     questionnaires was comparable to the voting rate of eligible citizens who voted
     in the United States. Fifty-one percent of our respondents used the absentee
     voting procedure to participate in the November 2000 election. An additional



                                         6
4 percent of our overseas respondents voted in person in the United States,
resulting in a total voting rate of 55 percent for all questionnaire respondents.

After each Federal election, FVAP surveys military personnel to determine the
voting participation rate. The military voting participation rates in the
November 2000 election were higher than military voting participation rates in
the 1996 Federal election, as reported by FVAP and shown in Table 1.

     Table 1. Federal Election Military Voting Participation Rates Reported by FVAP
                                         (percent)

                                              1996                        2000
 Worldwide
   Absentee                                    39                          48
   In person                                   13                          16
   Attempted*                                  12                          11

        Total                                  64                          75

 Overseas
    Absentee                                   47                          56
    In person                                   2                           4
    Attempted*                                  4                          12

        Total                                  53                          72
 *
  FVAP surveys included the attempted category for those respondents who attempted to
 vote, but were unable to cast a ballot.


The November 2000 military personnel voting rates are also higher than the
voting rates for the total U.S. voting age population including absentee and in
person voters.

The goals of FVAP are to inform and educate U.S. citizens worldwide of their
right to vote, foster voting participation, and protect the integrity of the electoral
process. During Federal elections, FVAP stated that it provides services and
voting materials to:

        •   Armed Forces Recruitment Offices nationwide for eligible U.S.
            citizens to apply for voter registration or to change their voter
            registration data;

        •   military voting assistance officers worldwide;

        •   more than 250 Embassy and consulate voting assistance officers; and

        •   about 13,000 State and local government officials.




                                         7
Challenges Encountered by Overseas Absentee Voters
    The overseas absentee voting procedure can be inherently difficult compared
    with stateside voting. Challenges encountered by overseas absentee voters
    included obtaining voting information and understanding State absentee voting
    procedures. We asked active duty personnel, DoD civilians, and their
    dependents about problems they encountered during the November 2000 election
    and any reasons they might have had for not voting.

    Problems Encountered During the November 2000 Election. About
    three-quarters of the questionnaire respondents reported that they had at least
    one problem during the November 2000 election. The five most frequently
    cited problems with the absentee voting procedures were:

           •   insufficient information on the candidates or their election issues;

           •   no way to know if the FPCA was received;

           •   voting procedures were complicated;

           •   no response or delayed response to the FPCA; and

           •   difficulty in maintaining a current mailing address with local election
               officials.

    Reasons for Not Voting. We asked respondents who did not vote to provide us
    their reasons for not voting. The five most frequently cited reasons were:

           •   respondents did not know how to obtain an absentee ballot,

           •   respondents had no candidate preference,

           •   respondents knew about the election, but were not interested in
               voting,

           •   respondents were not familiar with the candidates or issues, and

           •   respondents were discouraged by the absentee voting procedure.

    Many of the problems cited by voters and non-voters related to State absentee
    voting procedures. In addition, reasons cited for not voting included personal
    preference issues. Neither State absentee voting procedures nor personal
    decisions about voting are controllable by DoD. DoD can encourage voter
    participation but cannot and should not attempt to force its Service members to
    vote. DoD faces many of the same challenges faced by the entire United States
    in its attempt to increase voting participation, especially among the younger
    population of eligible voters. The DoD challenges are magnified because of the
    worldwide dispersion of active duty personnel. However, DoD could improve
    non-voters’ awareness and understanding of the absentee ballot process, which
    might encourage them to participate in future elections. Questionnaire results


                                         8
    revealed that more than one-third of the active duty respondents understood the
    process only to a small extent or not at all. Improving the oversight and
    implementation of the Service voting assistance programs would help solve
    absentee ballot problems related to voter encouragement and understanding.


Voting Assistance Program Oversight
    FVAP Oversight of Service Voting Assistance Guidance. FVAP did not
    ensure that Service voting assistance guidance included all requirements
    specified in DoD Directive 1000.4. DoD guidance requires that the heads of the
    DoD Components:

           •   provide information and assistance to all eligible voters;

           •   ensure command support at all levels for the FVAP;

           •   designate an officer of general or flag rank as the Senior Military
               Voting Officer to manage the voting programs;

           •   designate trained voting officers at every level of command with one
               senior voting officer at each installation (Senior Installation Voting
               Officer, paygrade O-4 or higher where possible) to coordinate the
               programs conducted by subordinate units and tenant organizations;

           •   obtain and disseminate voting information and materials
               expeditiously, including in-hand delivery of FPCAs by August 15 to
               eligible overseas voters;

           •   require the Inspectors General of the Military Departments to include
               FVAP as an item for specific review;

           •   provide for continuing evaluation of command voting programs; and

           •   ensure all Service members receive at least one briefing or training
               period devoted to absentee registration and voting during years with
               Federal elections.

    The DoD Voting Action Plan 2000-2001 established training as an annual
    requirement, rather than as a Federal election year requirement. That
    inconsistency should be resolved.

    Although the Services’ guidance was generally based on the DoD Directive,
    Table 2 illustrates some of the inconsistencies between the requirements in DoD
    Directive 1000.4 and Service guidance.




                                         9
     Table 2. Comparison of DoD and Service Voting Assistance Program Guidance
   Requirement of              Service Voting Assistance Program Guidance
   DoD Directive                        Includes DoD Requirement
      1000.4              Army              Navy          Air Force    Marine Corps

 Provide information       Yes              Yes            Yes             Yes
 and assistance to all
 eligible voters

 Ensure command            No               No             Yes             No
 support at all levels

 Designate O-7 or          Yes              No             Yes             Yes
 higher as Senior
 Military Voting
 Officer

 Designate trained         Yes              No             Yes             Yes
 voting officers

 Designate a Senior        Yes              No             Yes             Yes
 Installation Voting
 Officer

 In-hand delivery of       Yes              Yes            Yes             No
 FPCA by August 15
 to uniformed
 Service members

 In-hand delivery of       Yes              No             Yes             No
 FPCA by August 15
 to civilians and
 dependents

 Military Inspectors       No               No             Yes             Yes
 General include
 FVAP for review

 Ongoing evaluation        Yes              No             Yes             Yes
 of voting program

 Federal election          Yes              No             Yes             No
 year briefings to
 uniformed Service
 members


Some requirements in DoD Directive 1000.4 were issued in the Services’ voting
plans rather than in regulations. Issuing the policy in Service regulations would
ensure widest dissemination of DoD policies and procedures and emphasize the


                                     10
importance the highest levels of command place on exercising the right to vote.
We also believe correcting the significant inconsistencies between DoD and
Service guidance is important to maximizing the success of the Services’ voting
assistance programs.

We recognize that Service differences will prevent the policies from being
identical. However, it is essential that the Director of Administration and
Management, Office of the Secretary of Defense, provide oversight to ensure
that the Services’ guidance includes DoD requirements, such as those of DoD
Directive 1000.4 listed in Table 2.

Service-Level Oversight. The Services did not provide the oversight needed to
ensure that voting assistance policies were fully and consistently implemented so
that personnel were encouraged to vote and received the information, training,
and materials needed. Although a general or flag officer held the title of Senior
Military Voting Officer in each of the Services, overall responsibility for
managing the voting program was delegated to a lower level. For example, one
Service had delegated the responsibilities to a non-supervisory, grade 11
General Schedule (GS-11) civilian employee. The voting program managers
promoted voter participation through web sites, voting action lines, or other
means. However, they acknowledged that there were no controls or feedback
systems in place to ensure command support for FVAP, timely ordering and
dissemination of voting information and materials, and that military members
received required training. Further, there were no Service-level controls to
ensure that the Unit Voting Assistance Officers were trained or that a Senior
Installation Voting Officer was assigned at each installation or equivalent to
coordinate support for the voting program at all subordinate units and tenant
organizations. For those locations we visited where Senior Installation Voting
Officers were assigned, we reviewed voting program initiatives at the
installation level and asked about any controls or feedback systems in place for
ensuring that the voting program requirements were met. Even though Senior
Installation Voting Officers were assigned at some locations, there were
instances of:

       •   installations not following DoD or their own Service voting program
           guidance requirements;

       •   Senior Installation Voting Officers not coordinating with all
           subordinate units and tenant organizations; and

       •   subordinate units and tenant organizations not supported by either
           their host installation or their own chain of command.

In addition, the Inspector General of the Army had reviewed the voting program
in 1998, but was not performing recurring reviews of the program. The
Inspector General of the Navy did not review the voting program. As a result,
voting program initiatives varied significantly and the success of the program at
a particular location was dependent on individual efforts.




                                    11
Service Implementation of the Voting Assistance Program
           The Secretary of Defense stated that he wanted to make sure that overseas
           military members, their dependents, and DoD civilians were encouraged to vote
           and understood the absentee ballot process. FVAP and Service voting assistance
           programs encouraged many DoD personnel to vote and assisted them with the
           absentee voting procedure. However, the Services and installations within a
           Service varied considerably in how FVAP was implemented.

           Encouragement to Vote. The American Forces Information Service and
           FVAP provided advertisements, newsletters, posters, and other material
           designed to encourage voting. The American Forces Information Service and
           FVAP efforts are intended to be politically neutral and encourage voting without
           coercion. Additionally, strong command emphasis for voter registration and
           participation existed at some installations and ships. For example, at one
           installation, there were community outreach efforts at the local DoD school,
           voting assistance tables at installation recreational activities, and door-to-door
           voter registration drives. At another command, a senior military officer
           videotaped voting advertisements. Several installations had voter registration
           information and voting assistance at fixed locations, such as the post office and
           the community center. Several discussion group participants suggested that
           having voting assistance and materials at a fixed location provided an option
           other than their Unit Voting Assistance Officer. For details of absentee voter
           assistance best practices, see Appendix G.

           The questionnaires asked active duty personnel, DoD civilians, and their
           dependents to rate the emphasis placed on voting at their installation, ship, or
           submarine. Although 56 percent of the active duty respondents found that
           command emphasis was sufficient or too much, 44 percent rated the emphasis as
           not enough or none (insufficient). The perception that local command emphasis
           was insufficient was significantly higher among junior enlisted and all
           ship-based active duty respondents. The civilian/dependent1 respondents’
           perception of command emphasis was similar to that of active duty respondents.
           In contrast, more than 80 percent of the Unit Voting Assistance Officers were
           satisfied or somewhat satisfied with command emphasis. Although the design of
           the questionnaires does not allow the establishment of cause and effect
           relationships, the voting rate was significantly higher for respondents who
           thought that command emphasis was sufficient than for those who thought
           command emphasis was insufficient.

           Discussion group participants suggested that Service voting assistance programs
           could be improved if they were advertised and organized similar to the
           Combined Federal Campaign.2 The participants said that the Combined Federal


1
    Because responses for DoD civilians and dependents were generally similar, we combined them for
    presentation purposes in this report.
2
    The Combined Federal Campaign is the only authorized fund-raising solicitation at DoD installations
    and organizations on behalf of charitable organizations.



                                                     12
Campaign appears to consistently receive strong support and emphasis from
multiple levels of command.

Understanding of the Absentee Voting Procedure. Although information on
absentee voting was available from several FVAP resources and through voting
assistance officers, not all overseas absentee voters were aware of those
resources. Further, not all voting assistance officers were trained in the
absentee ballot process. Additionally, many discussion group participants were
not aware of the Federal Write-In Absentee Ballot. Approximately one-third of
the active duty respondents understood the absentee ballot process only to a
small extent or not at all.

        Availability of FVAP Voting Resources. The Secretary of Defense
memorandum “Federal Voting Assistance Program - 2000-2001” requires that
commanders and the heads of DoD Components ensure that voting information
and materials, such as the FVAP 2000-01 Voting Assistance Guide, FPCAs, and
Federal Write-In Absentee Ballots, are obtained and disseminated in a timely
manner. Further, DoD Directive 1000.4 requires the heads of DoD
Components to ensure in-hand delivery of FPCAs by August 15 of
even-numbered years to eligible voters who are serving outside the territorial
limits of the United States.

        Generally, the installations, ships, and submarines we visited had
sufficient quantities of voting information and materials on hand. However,
some installations and ships did not have readily available voting materials,
including FPCAs and Federal Write-In Absentee Ballots. Additionally, Senior
Installation Voting Officers stated that there were no formal controls to ensure
the necessary voting materials were received and disseminated in a timely
manner. Approximately three-quarters of the Unit Voting Assistance Officer
respondents were somewhat satisfied or satisfied with the quantity and timeliness
of voting materials received. About 70 percent were somewhat satisfied or
satisfied with the method for requesting voting materials. The Army Unit
Voting Assistance Officers were less satisfied with the methods for requesting
voting materials than the other Services. However, more than 85 percent of the
active duty and civilian/dependent respondents who used the Unit Voting
Assistance Officers to obtain voting materials were somewhat satisfied or
satisfied that the materials were available on request.

        Awareness of and Satisfaction With FVAP Voting Resources. FVAP
provides voting assistance and information to overseas absentee voters through a
variety of resources, including the FVAP 2000-01 Voting Assistance Guide, the
FVAP web site, and a toll-free telephone service. The questionnaires asked
about awareness of and satisfaction with those resources. Although many
respondents were not aware of the resources, those who had used the resources
were very satisfied with them. Table 3 shows the percent of active duty
personnel and civilian/dependent respondents who were aware of FVAP
resources.




                                   13
          Table 3. Percent of Awareness of FVAP Voting Assistance Resources
                                                      Percent Aware
             Resource                   Active Duty            Civilians/Dependents

 FVAP 2000-01 Voting Assistance             60                           52
  Guide

 FVAP web site                              49                           58

 FVAP toll-free telephone service           25                           30



        Table 4 shows the level of satisfaction for the respondents who rated
satisfaction with FVAP resources.

        Table 4. Percent of Satisfaction with FVAP Voting Assistance Resources
                                                      Percent Satisfied
             Resource                   Active Duty              Civilians/Dependents

 FVAP 2000-01 Voting Assistance             91                           85
  Guide

 FVAP web site                              90                           85

 FVAP toll-free telephone service           79                           72



        The questionnaire asked Unit Voting Assistance Officers to rate the
usefulness of five FVAP resources: the FVAP 2000-01 Voting Assistance
Guide, Voting Information News, the FVAP web site, the voting information
center, and the toll-free telephone service. A large majority of the Unit Voting
Assistance Officers had access to the FVAP 2000-01 Voting Assistance Guide,
Voting Information News, and the web site. However, 43 percent of the Unit
Voting Assistance Officers stated the voting information center was not available
to them and 54 percent stated the toll-free telephone service was not available to
them. Of the Unit Voting Assistance Officers with access to the resources,
more than 90 percent found the FVAP 2000-01 Voting Assistance Guide, Voting
Information News, and the web site to be useful or somewhat useful. More than
80 percent found the voting information center useful or somewhat useful, but
only 60 percent found the toll-free telephone service useful or somewhat useful.

       From the discussion groups, it became apparent that not all voters would
have had access to all of the resources even if they had been aware of them.
For example, Internet availability varied at the locations we visited. In addition,
the FVAP 2000-01 Voting Assistance Guide included a toll-free telephone
number for use from stateside, but did not include toll-free telephone numbers
accessible from foreign countries. Many of the discussion group participants
expressed frustration that they could not use the toll-free number in the Guide.


                                      14
The toll-free numbers for overseas locations are listed on the web site, but, as
shown in Table 3, less than half of the active duty respondents were aware of
the web site.

        FVAP explained that the overseas toll-free numbers were not published
in the FVAP 2000-01 Voting Assistance Guide because of the timing of a change
in telephone service contractors and the timeline requirements for printing the
Guide. FVAP officials stated they would include the overseas toll-free numbers
in future editions of the Guide. We believe that FVAP should include the
overseas toll-free numbers and DSN numbers in all of its resources. Further,
public awareness items, such as voting awareness posters, should include a
blank space where appropriate toll-free, DSN, and Unit Voting Assistance
Officer telephone numbers could be added.

        Unit Voting Assistance Officers. At each DoD installation, ship, and
submarine, the commanding officer has overall responsibility for implementing
the policies and procedures of the Service voting assistance program. At some
locations, a Senior Installation Voting Officer had been appointed to organize
and direct the local voting assistance program. To assist the Senior Installation
Voting Officer, Unit Voting Assistance Officers were appointed to organize and
direct voting assistance support. Voting assistance responsibilities are collateral
duties for the Service Installation Voting Officer and Unit Voting Assistance
Officers. Materials and services provided by Unit Voting Assistance Officers
are critical to overseas absentee voters successfully exercising their right to
vote. Table 5 shows the support to overseas absentee voters provided by Unit
Voting Assistance Officer questionnaire respondents.

     Table 5. Specific Support Provided by Unit Voting Assistance Officers (UVAOs)

                                                                                  Percent of UVAOs
                                 Support                                          Providing Support

 Conducted workshops or briefings on voting for unit members                                59

 Conducted workshops or briefings on voting for family
                                                                                           251
 members

 Conducted workshops or briefings on voting for civilians                                  241

 Made FPCAs available to voters by August 15, 20002                                         93

 Assisted individuals with the voting process                                               93

 Displayed voting assistance materials                                                      87

 Involved base community organizations in the voting program                                18
 1
  Some UVAOs were not responsible for providing materials or services to DoD civilians or dependents.
 2
  DoD Directive 1000.4 requires in-hand FPCA delivery by August 15. FPCA availability may not have meant
 in-hand delivery in all cases.




                                                15
                Voter Awareness of and Satisfaction With Unit Voting
Assistance Officers. About one-third of the active duty respondents stated that
they did not know who their Unit Voting Assistance Officer was. Awareness of
the Unit Voting Assistance Officer was lower among junior enlisted, with nearly
two-thirds of the junior enlisted respondents stating they did not know who their
Unit Voting Assistance Officer was. Also, more Army respondents were
unaware of their Unit Voting Assistance Officer than respondents from the other
Services. About 60 percent of the civilian/dependent respondents did not know
who their Unit Voting Assistance Officer was. The respondents who knew who
their Unit Voting Assistance Officer was also reported a significantly higher
level of understanding of the absentee ballot process. Discussion group
participants stated that it would be beneficial if installation public affairs offices
publicized the names and telephone numbers of Unit Voting Assistance Officers.

              Although many of the respondents did not know who their Unit
Voting Assistance Officer was, those who did were generally satisfied with the
support provided. For those respondents who knew who their Unit Voting
Assistance Officer was, more than 80 percent were satisfied with Unit Voting
Assistance Officer availability, knowledge of the overseas absentee ballot
process, and provision of balloting materials.

               Unit Voting Assistance Officer Span of Control. One critical
factor in Unit Voting Assistance Officer availability is the number of people
served by the Unit Voting Assistance Officer. There was little DoD or Service
guidance about how many voters a Unit Voting Assistance Officer can
reasonably serve. Air Force guidance states that there should be one Unit
Voting Assistance Officer for every 20 voters and allows that ratio to be
expanded to one Unit Voting Assistance Officer per 40 voters. There was no
other guidance on the subject.

               More than 50 percent of the Unit Voting Assistance Officer
respondents stated that they served 100 or more voters during the 2000 Federal
election. About 30 percent of the respondents served 250 or more voters.
Additionally, about one-quarter of the Unit Voting Assistance Officer
respondents stated they were somewhat dissatisfied or dissatisfied with the
amount of time available for performing Unit Voting Assistance Officer duties.
As previously stated, voting assistance responsibilities are a collateral duty for
all Unit Voting Assistance Officers.

               A “one size fits all” concept will not work in determining how
many voters a Unit Voting Assistance Officer should serve because of
differences in Service and unit organizational structure. However, the Director
of Administration and Management, Office of the Secretary of Defense, should
determine a maximum number of voters to be served by a Unit Voting
Assistance Officer. That determination should be made in coordination with the
Services and consider the unique challenges faced by units that have employees
on shift work, deploy without support groups that include voting assistance
program representatives, are geographically separated from their chain of
command, or are tenants on another command or Service’s installation. Each of
those challenges was raised by discussion group participants or by us in
attempting to determine whether all absentee voters had access to a Unit Voting


                                     16
           Assistance Officer. As mentioned previously, several discussion group
           participants suggested that the voting assistance program would be better if
           organized similar to the Combined Federal Campaign. Some participants noted
           that although they did not know who their Unit Voting Assistance Officer was
           or where to get voting materials, there never seems to be a problem receiving
           Combined Federal Campaign materials even when deployed or on a ship.

                  Training for Unit Voting Assistance Officers and Voters. DoD
           recognizes the value of training its overseas absentee voters, as evidenced by the
           DoD Directive 1000.4 requirement for election-year training for all military
           members. The Directive does not require training for DoD civilians or
           dependents.

                   FVAP conducted 70 formal seminars and workshops at 62 locations
           worldwide before the November 2000 election. The seminars and workshops
           focused on the duties and responsibilities of Unit Voting Assistance Officers and
           highlighted the resources available to conduct a successful voting assistance
           program. The seminars and workshops were available to voting assistance
           officers; however, travel fund limitations and operational commitments by
           Service personnel often precluded attendance. Overseas absentee voters were
           also welcome to attend FVAP training at many sites. In addition, about
           60 percent of the Unit Voting Assistance Officer respondents conducted
           briefings for unit members and about one-quarter conducted briefings for
           civilians and dependents.3

                           Unit Voting Assistance Officer Training. Unit Voting
           Assistance Officers rated the usefulness of five specific types of Unit Voting
           Assistance Officer training: FVAP workshop, FVAP web site, installation
           workshop, informal briefing, and self-taught with voting materials. Nearly all
           of the Unit Voting Assistance Officer respondents who received any type of
           training considered it to be somewhat useful or useful. Although FVAP
           conducted 70 seminars and workshops at 62 locations worldwide, 68 percent of
           the Unit Voting Assistance Officer respondents had not attended a FVAP
           seminar or workshop. Also, 68 percent had not attended installation workshops.
           More than half had not attended either FVAP or installation workshop training.
           “Self-taught” was by far the most common type of training for the Unit Voting
           Assistance Officer respondents. In addition, about half said they used the voting
           assistance officer training program available on the FVAP web site and about
           half said they attended informal briefings. FVAP maintained training rosters
           for attendees at its 70 workshops. However, no one in the Services was
           tracking training to ensure that all military voters and Unit Voting Assistance
           Officers were trained.

                          Training Absentee Voters. Despite FVAP and Unit Voting
           Assistance Officer training, about 60 percent of the active duty respondents and
           80 percent of the civilian/dependent respondents did not receive one briefing,
           training session, or instruction period devoted to the absentee voting procedure

3
    Because some Unit Voting Assistance Officers were not responsible for providing voting assistance to
    DoD civilians or dependents, that percent may be artificially low.



                                                     17
for the November 2000 election. The absentee ballot process was understood to
a moderate extent or more by a significantly higher percent of respondents who
had received training than those who had not.

        Federal Write-In Absentee Ballot. Not all voters and Unit Voting
Assistance Officers were aware of the Federal Write-In Absentee Ballot. The
Federal Write-In Absentee Ballot is a valuable resource for voters who have
registered to vote and requested an absentee ballot, but who do not receive the
ballot in time to vote. FVAP increased its efforts to make the Federal Write-In
Absentee Ballot available, more than tripling the number of Federal Write-In
Absentee Ballots sent to overseas voters for the 2000 election than for the 1996
election.

        Lack of voter awareness of the Federal Write-In Absentee Ballot became
evident during the course of the evaluation. As a result, we began asking about
Federal Write-In Absentee Ballot awareness in the discussion groups. Federal
Write-In Absentee Ballots were discussed in about half of the groups. About
three-quarters of those asked were not aware of the Federal Write-In Absentee
Ballot. Higher ranking military were generally more likely to be aware than
lower ranking military and civilians; however, examples existed of senior
military officers and Unit Voting Assistance Officers who were not aware of the
Federal Write-In Absentee Ballot. In addition, about 10 percent of
questionnaire respondents who were registered to vote stated they did not vote,
in part, because they did not receive an absentee ballot or received it too late.
Those respondents represent potential users of the Federal Write-In Absentee
Ballot and a potential 10 percent increase in the voting participation rate of our
respondents. Such an increase based on awareness and use of one form is
significant and warrants increased emphasis and training.

        Voter Level of Understanding of the Absentee Ballot Process. Voter
understanding is critical to successful use of absentee ballots. Questionnaire
results revealed that more than one-third of the active duty respondents
understood the absentee ballot process only to a small extent or not at all. The
level of understanding was significantly lower for junior enlisted. The level of
understanding was slightly higher for civilian/dependent respondents than for
active duty respondents. Additionally, the understanding level for respondents
who had previously voted using an absentee ballot was significantly higher than
those who had not.

        Providing accessible and trained Unit Voting Assistance Officers and
providing training for absentee voters will improve understanding of the
absentee voting procedures. Special emphasis should be given to training junior
enlisted and individuals who have not previously used an absentee ballot to vote.
The Services should consider using various training materials and military
settings, such as pre-recorded FVAP videotapes, pre-deployment sessions,
command indoctrination, and general military training sessions, to maximize the
training availability and effectiveness.




                                    18
Challenges for Ships and Submarines
    Ship- and submarine-based assignments result in unique challenges for absentee
    voters. We visited one aircraft carrier, one command ship, three destroyers,
    and two submarines to examine any unique absentee ballot problems
    experienced by afloat personnel. All seven vessels were either homeported
    overseas or deployed during the November 2000 election.

    Information Access. Ship- and submarine-based personnel reported that
    absentee voting was more difficult because of limited opportunities to obtain
    information. Ship and submarine crews told us that mail service is sometimes
    interrupted by changes in ports of call, duty assignments, or other operational
    considerations. Such changes can result in considerable delay for both inbound
    and outbound mail. For example, following the USS Cole bombing in October
    2000, ships were diverted to unscheduled locations and some were unable to
    receive or send mail for about a month.

    Discussion groups with ship and submarine crews also revealed that Internet
    service is not always available. When ships are at sea, Internet service is
    available via satellite, but service may not be available at all due to physical
    locations or operational considerations. Submarines normally do not have
    Internet service during deployments. Access to commercial long-distance
    telephone service is also limited. For example, long-distance service for other
    than official use telephone calls is available from ships, but costs crew members
    about $1 per minute.

    Ship Unit Voting Assistance Officers. Ship-based personnel were as satisfied
    with the performance of their Unit Voting Assistance Officer as their
    shore-based counterparts. However, assignments aboard ship can limit the
    availability and accessibility of the Unit Voting Assistance Officer. Ship-based
    discussion group participants stated that some crew members did not have ready
    access to their Unit Voting Assistance Officer or voting information and
    materials because of their work shifts. In addition, Unit Voting Assistance
    Officers deployed aboard ships and submarines cannot tap into home port
    resources such as community, installation, and other support services.

    Discussion group participants’ comments revealed that remotely deployed
    shore-based units also encounter difficulties in receiving personnel support. For
    example, deploying units may not always be supported by Unit Voting
    Assistance Officers when those individuals are assigned to units other than the
    one deploying.

    Although voting challenges will always exist for such units, advanced planning
    of voting assistance strategies could reduce the voting challenges. For example,
    members of deploying units could be encouraged to register to vote and request
    an absentee ballot prior to deployment. Additionally, obtaining voting materials
    could be included in pre-deployment checklists.




                                       19
FVAP Coordination With States’ Election Officials
     Many of the problems cited by respondents to our questionnaires and
     participants in our discussion groups are outside the control of DoD. FVAP
     spends considerable time coordinating with the States and various organizations
     to resolve issues of overseas absentee voters. For example, FVAP has worked
     with State offices, such as the National Association of Secretaries of State and
     the National Association of State Election Directors, and other organizations,
     such as the Military Coalition and the National Science Foundation.

     Each year, FVAP contacts the chief election officials in the States, the District
     of Columbia, and the territories to propose changes to policy or legislation that
     would simplify absentee voting procedures. As of May 2001, FVAP was
     working with the election officials on proposals related to timelines for mailing
     ballots, expanded use of the FPCA, notary requirements for all absentee
     balloting materials, restrictions on how early overseas absentee voters can
     request registration and/or absentee ballots, and requirements for absentee
     ballots to be received before election day. FVAP was also working on
     proposals related to special State write-in absentee ballots, electronic
     transmission of balloting materials, enfranchisement of citizens who have never
     lived in the United States, emergency authority for election officials in handling
     absentee ballots, and increased acceptance of the on-line version of the FPCA.
     A detailed discussion of most of the proposals can be found at the FVAP web
     site (http://www.fvap.ncr.gov). In addition, FVAP has coordinated with the
     States in the past to initiate several legislative and policy changes. For example,
     in 1999, FVAP worked with election officials from North Carolina regarding
     the electronic transmission of the FPCA for registering to vote.

     Based on questionnaire and discussion group results, we identified several issues
     that FVAP should continue to work with the States, including standardization
     and simplification of the absentee ballot process; voter residency requirements;
     feedback to absentee voters on receipt of registration applications, ballot
     requests, and ballots; and opportunities for increased use of technology to
     resolve difficulties related to overseas absentee voting. Several of the issues
     raised by the discussion group participants are directly related to the proposals
     being worked by FVAP.

     Standardization and Simplification of the Overseas Absentee Ballot Process.
     About 15 percent of all active duty respondents thought the process was
     complicated. Discussion groups reinforced that perception and mentioned
     different registration procedures and requirements for the States as a common
     issue. Although standard registration procedures and ballots for overseas
     absentee voters from all States is not practical in the near future, significant
     improvements can be made in standardizing and simplifying the process.

     The FVAP 2000-01 Voting Assistance Guide discusses requirements for
     obtaining and submitting absentee ballots for the 50 States, the District of
     Columbia, and 4 U.S. territories for the November 2000 election. Those
     requirements include significant differences that could have confused the
     absentee voter, that made the voting process difficult, and that might have


                                         20
discouraged participation of eligible absentee voters. We did not review
applicable laws of the States or the District of Columbia nor did we attempt to
identify differences of individual voting jurisdictions.

        Timelines for Mailing Absentee Ballots. According to the FVAP
2000-01 Voting Assistance Guide, the 50 States and the District had 17 different
absentee ballot mailing date requirements for when to mail absentee ballots to
voters for the November 2000 election. Those timelines varied widely. Ballots
were mailed as early as 60 days before the election and as late as 13 days before
the election.

         Twenty-four States also had special write-in absentee ballots available by
request for eligible voters who were unable to vote in person due to overseas or
military duty. Special absentee write-in ballots are available sooner than regular
absentee ballots and do not always include candidates and issues. Those
24 States had 11 different mailing date requirements for their special write-in
ballots, as well as other differences. For example, Louisiana would have mailed
a special ballot that included only Presidential candidates. California provided a
list of candidates and issues current as of 60 days before the election with its
write-in ballot. Virginia special write-in ballots were only available for election
of State officials.

        Three States required absentee ballots to be received from the voter prior
to the election. Thirty-three States required absentee ballots to arrive by
election day. Fifteen States had seven different grace periods, ranging from 2 to
15 days after the election. Nine of the 15 States required a postmark dated no
later than the date of the election, and five of the 15 States required a postmark
dated at least 1 day before the date of the election. One of the 15 States allowed
a grace period but the Guide did not state when the postmark was required.
Two States’ grace periods were only for Federal elections. In several discussion
groups, participants stated they did not like the grace period. They said that
because the election would be over before their vote was due, they felt their
votes were either not counted at all or did not count in States with grace periods.
They stated they would prefer to have enough up-front time to process an
absentee ballot that would be received in time to be counted with other
election-day votes. In addition, potential postmark issues that made the news
subsequent to the November 2000 election were generally related to States with
grace periods. States that do not offer grace periods are concerned that a ballot
is received by a certain date and are not concerned that the ballot was
postmarked by election day.

       Considering the realities of overseas mail and challenges with
deployments, several States’ timelines for requesting, receiving, and returning
an absentee ballot could have resulted in votes not being received in time.
According to the FVAP 2000-01 Voting Assistance Guide, 14 States mail ballots
to overseas voters 30 days or less before the election. Louisiana’s regular
absentee ballot was mailed 13 days prior to the election.

        Although there are many political and legal issues related to changing
dates for mailing ballots to voters, mailing ballots 45 days before an election
would help ensure that all absentee voters have sufficient time to process their


                                    21
ballots even if the mail system does not work as designed. We reviewed a
limited sample of incoming mail at the post office at Naval Air Station
Sigonella, Sicily, in February 2001, and found the mail had an average transit
and receipt time of 8 days, with about 15 percent taking more than 8 days. In
addition, during the period of October 7 through November 3, 2000, U.S.
Postal Service reports show that about 20 percent of the mail sent from Italy to
the Mid-Atlantic region did not arrive within 10 days. In effect, it could have
taken 18 or more days for some Service members in Italy to receive and return
mail from the Mid-Atlantic States, but at times, it can take longer. Of those
18 or more days, we believe that other than for 4 to 6 days, the mail was with
the U.S.Postal Service, not the MPS, and therefore not controllable by DoD.
Those transit and receipt times meant that if a Mid-Atlantic State mailed an
absentee ballot exactly 30 days prior to the November 2000 election and if the
voter picked up the mail the same day it was received and returned the ballot
immediately, there would have been no problem with timeliness. However, if
the State mailed the ballot less than 30 days before an election or if the voter
was traveling, on leave, deployed, or otherwise not able to pick up the ballot on
the day it arrived, or if the voter’s mail was in the portion of mail that takes
longer than normal, there was a chance that the ballot would not have been
received by the State in time. Those problems were further complicated for
deployed units, ships, and submarines, which have other challenges in receiving
and sending mail. Additionally, if a military member was transferred before
receiving an absentee ballot, the absentee ballot would have to be forwarded
from one MPS post office to another, increasing the chance that the ballot could
not be processed in a timely manner.

        The mailing times cited are for a specific period of time and are not
typical of mailing times to and from Italy. Our limited sample was not intended
to be statistical and should not be generalized to all mail to and from Italy or
within the MPS. However, the sample does allow for illustration of potential
problems for voters registered in States that mail absentee ballots 30 days or less
before the election.

        FVAP recognizes the potential problems associated with the States’
timelines for absentee ballots and has encouraged the States to use a 45-day
timeline. In addition, FVAP recommends that overseas voters who are
registered should request an absentee ballot, but use a Federal Write-In
Absentee Ballot if the absentee ballot is not received within 25 days of the
election. Following FVAP guidance, nearly every overseas voter registered in
the 14 States that do not mail absentee ballots more than 30 days prior to the
election would use the Federal Write-In Absentee Ballot.

        Absentee Ballot Envelopes. Discussion group participants also
identified ballot envelopes as a problem. The participants stated that some
States require signatures on the outside of envelopes and others require voter
identification or Social Security numbers. Participants expressed concern about
identity theft. MPS officials also cited problems with ballot envelopes, stating
that the U.S. Postal Service had returned a few ballots to the overseas voter
rather than delivering them to the address for the State election official the voter
intended. The postal equipment was reading the return address rather than the
recipient’s address.


                                     22
        Permanent Versus Temporary Registration. According to the FVAP
2000-01 Voting Assistance Guide, 33 States accept the FPCA as permanent
registration, but five States consider the FPCA as temporary registration,
requiring a State form for permanent registration. Another 13 States waive
registration but require overseas absentee voters to submit the FPCA for each
election. That may, in effect, be similar to a temporary registration. It is
impractical for DoD voting assistance officers to have copies of every State’s
registration form. As a result, the overseas absentee voter would need to go to
a source outside of DoD to obtain forms for permanent registration. If the
FPCA could be used for permanent registration by everyone, overseas absentee
voters would only need to keep the States aware of their current mailing
address.

        Notarization and Witnessing Requirements. FVAP has worked with
the States toward eliminating notarization and witnessing requirements on
absentee ballots. However, for the November 2000 election, the FVAP 2000-01
Voting Assistance Guide identified eight States that required witnesses to sign
either the completed ballot or the ballot envelope. One State required the FPCA
to be notarized or sworn to before a commissioned officer and one State
required the military commander’s signature on the State absentee ballot
certificate. In addition, two other States required a witness’s signature on the
FPCA.

Voter Residency Issues. FVAP has worked with the States to ensure that
voter residency issues are resolved as FVAP is made aware of them. However,
several participants in our discussion groups expressed frustration over problems
they had encountered in establishing or maintaining voter residency. One
individual informed us that he had used the same address for many years and
successfully voted, but that for the November 2000 election, his request for a
ballot was denied. The local election jurisdiction informed him that the address
no longer existed. Another individual, a DoD civilian, stated that she had not
lived in the United States as an adult and had been a military dependent overseas
for most of her life. She is no longer a dependent and is working as a civilian
overseas. She was not able to resolve voter residency issues and, as a result,
did not vote in the November 2000 election. The FVAP 2000-01 Voting
Assistance Guide has guidance on voter residency, and several of the problems
we identified could have been resolved if FVAP had been notified of the
problems. We believe that FVAP can further reduce residency problems by
ensuring that voting assistance officers are well trained on voter residency
requirements and resources for solving such issues and by working with the
States to help ensure that election officials are aware of potential problems.

Feedback to Voters on Receipt of Balloting Materials. One of the more
consistent complaints heard during the discussion groups was that overseas
absentee voters generally did not know whether their FPCAs or ballots were
received. The FPCA includes a tear-off pre-addressed response for election
officials to return to the voter to acknowledge receipt, but most discussion group
participants had not received the response. About 30 percent of the respondents
said one of their concerns was that there was no way to know whether State




                                    23
    election officials had received their FPCAs. About 15 percent of respondents
    stated that no response or a delayed response to their FPCA submission was a
    problem during the November 2000 election.

    Opportunities for Increased Use of Technological Solutions. For the
    November 2000 election, FVAP conducted a demonstration project that allowed
    84 active duty personnel to register and vote using the Internet. The 84
    personnel were located in 21 States and 11 foreign countries and registered or
    voted electronically in Florida, South Carolina, Texas, and Utah. Each one of
    the voters received instant confirmation when the vote was received and the
    ballots were counted immediately when the polls closed. FVAP used digital
    signatures, encryption, and other security measures to ensure the integrity of the
    voting process.

    Although widespread Internet voting may not become a reality in the near
    future, FVAP should explore other opportunities for technological solutions to
    absentee voting problems. Several of the discussion group participants
    suggested that the process could be expedited if they could register to vote,
    request a ballot, and download or receive a ballot through the Internet or by fax.
    Despite security and cost issues related to such solutions, their potential
    implementation should be reviewed.


Conclusion
    FVAP provides valuable resources for use by overseas voting assistance officers
    and potential absentee voters. However, awareness of the resources by potential
    users could be improved. Approximately half of our questionnaire respondents
    participated in the November 2000 election, which was comparable to
    participation rates in the November 1996 election. Opportunities existed to
    improve the voting assistance provided to potential overseas absentee voters, as
    one-third of the active duty respondents said they understood the absentee ballot
    process only to a small extent or not at all.
    DoD should improve oversight of the voting assistance program and the
    consistent implementation of DoD requirements by the Services. Command
    emphasis at all levels is crucial. Voting materials and training on absentee
    voting procedures should be provided as required, with special emphasis for
    junior enlisted personnel and those who have not previously used an absentee
    ballot to vote. Additionally, properly trained and readily available Unit Voting
    Assistance Officers are essential to the success of FVAP.

    Although some challenges will always exist for absentee voters who are
    remotely deployed, aboard ships, and on submarines, the Services can improve
    their voting experience by recognizing those challenges and planning for them
    well in advance of deployments, when possible.

    Finally, many challenges to overseas absentee voters are not within the control
    of DoD. Regardless of how effective the DoD program is, some voters will not
    have the opportunity to vote if changes are not made in State and local voting


                                        24
    jurisdictions. FVAP has made considerable progress in working with the States
    to make the voting process easier for absentee voters and should continue to
    work with the States to resolve issues as they are identified. Several bills are
    being considered by Congress to improve the absentee voting process. We fully
    endorse any Federal or State actions that would lead to more uniform and simple
    voting procedures and requirements, thus reducing the burden on DoD voting
    assistance officers and absentee voters. The ongoing GAO review of
    State-related issues will be useful in that regard.


Recommendations, Management Comments, and Evaluation
  Response
    1. We recommend that the Director of Administration and Management, in
    coordination with the Assistant Secretary of Defense (Force Management
    Policy):

          a. Revise DoD Directive 1000.4, “Federal Voting Assistance
    Program (FVAP),” to:

                    (1) Require the Services to ensure that all eligible DoD
    overseas absentee voters are provided support by Unit Voting Assistance
    Officers, including those voters in deployed units, geographically separated
    units, ships and submarines, and subordinate units and tenant organizations
    on all installations.

                 (2) Specify the maximum number of eligible voters that a
    Unit Voting Assistance Officer should support.

         b. Resolve the discrepancy between DoD Directive 1000.4 and the
    DoD Voting Plan on the timing of training requirements.

           c. Provide oversight of Service policies to ensure consistency with
    DoD regulations. As a minimum, all Service regulatory guidance should
    include requirements to:

                  (1) Provide information and assistance to all eligible DoD
    voters.

                  (2) Emphasize command support at all levels for the Federal
    Voting Assistance Program.

                  (3) Designate an officer of general or flag rank as the “Senior
    Military Voting Officer” to manage each Service’s voting program.

                  (4) Designate trained voting assistance officers at every level
    of command, with one Senior Installation Voting Officer at each installation
    or location (O-4 or higher where possible) to coordinate the programs
    conducted by subordinate units and tenant organizations.


                                       25
              (5) Ensure voting information and materials are disseminated
expeditiously, including in-hand delivery of Federal Post Card Applications
by August 15 of even-numbered years to eligible overseas DoD voters.

              (6) Require the Inspectors General of the Services to include
Service voting assistance programs as an item for specific review.

               (7) Provide for continuing evaluation of command voting
programs.

              (8) Ensure all military members receive at least one briefing
or training period devoted to absentee registration and voting during years
with Federal elections or each year, depending on the outcome of
Recommendation 1.b.

Management Comments. The Assistant Secretary of Defense (Force
Management Policy) stated that FVAP has a proven record of meeting the
voting needs of active duty military personnel and overseas citizens on a non-
partisan basis. The Assistant Secretary stated that FVAP will continue to make
improvements based on the results of its 2000 post-election survey, voter
feedback, and the recommendations in this report. The Assistant Secretary
agreed that FVAP implementation procedures and effectiveness can be improved
for DoD-wide voter assistance services.

The Assistant Secretary concurred with most elements of the recommendation,
stating that his office will revise DoD Directive 1000.4 to ensure the Military
Departments include the DoD FVAP requirements in their regulations. The
revision will include the requirement that Unit Voting Assistance Officers
support all active duty personnel and their family members, including deployed,
dispersed, and tenant organizations. Overseas installations will provide voting
assistance to eligible overseas DoD civilian employees and their family
members.

The Assistant Secretary concurred with the recommendation to specify the
maximum number of eligible voters that a Unit Voting Assistance Officer should
support, but stated that it is not feasible for his office or FVAP to prescribe a
universal ratio of Unit Voting Assistance Officers to eligible voters. He stated
that the Military Departments will determine an equitable ratio.

The Assistant Secretary stated that FVAP will review Military Department
voting plans, policies, and training schedules to ensure they are consistent with
the DoD Directive. The review will include command support of the program
at all levels. Additionally, the FVAP review will include:

       •    assignment of a uniformed O-7 officer as the Senior Service Voting
            Representative and Service Voting Action Officers to manage each
            Service voting program,

       •    the appointment of an Installation Voting Assistance Officer to
            coordinate all installation voting activities,



                                    26
       •   documentation recording the training of Installation Voting
           Assistance Officers and Unit Voting Assistance Officers,

       •   annual training for all Service members, to include general military
           training and basic training and command courses,

       •   development of a system to ensure in-hand delivery of the FPCA,

       •   development of command-wide voting awareness and assistance
           programs, and

       •   inclusion of the Military Department voter assistance programs as a
           Military Department Inspectors General item for specific review.

Evaluation Response. We consider the comments from the Assistant Secretary
of Defense (Force Management Policy) to be responsive. We agree with the
alternative proposal offered by the Assistant Secretary to
Recommendation 1.a.(2). He stated that the Military Departments will
determine an equitable ratio for eligible voters supported by Unit Voting
Assistance Officers and will include the ratio in Military Department policies.
We recognize that the composition, mission, and size of military units are not
conducive to a “one size fits all” ratio. Accordingly, we accept the alternative,
but request that the Office of the Assistant Secretary of Defense (Force
Management Policy) oversee the Services’ determinations to ensure they are
reasonable.

2. We recommend that the Secretaries of the Military Departments require
that all installations, ships, and submarines have absentee voting materials
and access to voting assistance at a well-advertised fixed location.

3. We recommend that the Secretaries of the Military Departments require
Senior Military Voting Officers to:

       a. Establish controls and procedures to ensure:

              (1) Program continuity.

              (2) Voting information and materials are disseminated
expeditiously, including in-hand delivery of Federal Post Card Applications
by August 15 of even-numbered years to eligible overseas voters.

              (3) Senior Installation Voting Officers are designated to
coordinate the voting assistance program on an installation or at a defined
location and to ensure that all DoD voters are supported by and aware of
their Unit Voting Assistance Officer.

              (4) All levels of voting assistance officers receive training.

             (5) Overseas DoD absentee voters receive training during
years with Federal elections, or each year, depending on the outcome of
Recommendation 1.b. Special emphasis should be given to providing


                                   27
training to junior enlisted personnel and those who have not previously used
an absentee ballot to vote. The Services should consider various training
materials and military settings for providing training, such as pre-recorded
Federal Voting Assistance Program videotapes, pre-deployment sessions,
command indoctrination, or general military training sessions. As a
minimum, training should include:

                      (a) An overview of Federal Voting Assistance Program
resources.

                     (b) Details on the absentee voting procedure and
specific forms, such as the Federal Post Card Application and the Federal
Write-In Absentee Ballot.

        b. Develop guidance for use by Unit Voting Assistance Officers for
ships, submarines, and remotely deployed units in planning voting
assistance strategies prior to known deployments.

4. We recommend that the Inspectors General of the Army and the Navy
include their Service’s voting assistance program as an item for specific
review.

Management Comments. The Assistant Secretary of Defense (Force
Management Policy), in coordination with the Director of Administration and
Management, concurred with the recommendations. He stated that an
Installation Voting Assistance Officer will be assigned to coordinate all voting
activities. He stated that for continuity purposes, Installation Voting Assistance
Officer duties should be assigned to a DoD civilian at the GS-12 level or above.
Further, the commander of each separate unit shall assign a Unit Voting
Assistance Officer, at the O-2/E-7 level or above. FVAP will review Military
Department plans and policies to verify they include a system to ensure the
in-hand delivery of the FPCA. Annual general military and basic training on
absentee voting will be conducted, with emphasis encouraging junior Service
members to register and subsequently vote. Training and voting assistance will
be provided for units preparing for deployment. Further, the Military
Departments will designate at least one well-advertised fixed location where
absentee voting material and voting assistance is available to all military
personnel, family members, and civilian employees. In addition, the Inspectors
General of the Services will include Service voting assistant programs as an item
for specific review, evaluation, and assessment.

Evaluation Response. The comments by the Assistant Secretary are
responsive.

5. We recommend that the Federal Voting Assistance Program continue to
coordinate with State election officials to resolve absentee voting issues
related to:

       a. Standardization and simplification of the overseas absentee ballot
process.



                                    28
       b. Voter residency requirements.

        c. Feedback to voters on the status of submitted registration and
balloting materials.

       d. Increased use of technological solutions for registering to vote,
requesting a ballot, and receiving a ballot.

Management Comments. The Assistant Secretary of Defense (Force
Management Policy) concurred, stating that FVAP will continue to work with
the States to improve absentee voting procedures. FVAP will continue to attend
state and local election official conferences to provide information on FVAP and
to provide and receive information on improvements to absentee voting
procedures. Issues will include voter residency requirements, acknowledgement
of receipt of absentee registration materials, and expedited handling of balloting
materials. Also, FVAP will continue to pursue new technology to improve the
absentee registration and voting processes.




                                    29
Appendix A. Evaluation Process

Scope and Methodology
    Work Performed. We reviewed pertinent laws, policies, and guidance dated
    from May 1980 through January 2000 related to the absentee ballot process and
    the Service voting assistance programs. We obtained information related to the
    voting assistance program for the November 2000 election from FVAP. We
    interviewed personnel involved with voting assistance programs at the Office of
    the Secretary of Defense and the Services. We obtained policies and procedures
    for processing and handling overseas absentee ballots and for instructing Service
    members (and others) on voting requirements and deadlines. We also visited
    the MPS Agency and obtained policies and procedures for the MPS handling of
    overseas absentee ballots. We coordinated our efforts with GAO to minimize
    duplication and ensure adequate coverage of the overseas absentee voting issue.

    We worked with the Defense Manpower Data Center (DMDC) to establish the
    universe of overseas DoD installations, ships, and submarines. We selected a
    non-statistical, judgmental sample of overseas installations and ships and
    submarines that had been deployed during the election process. Site visits were
    conducted from February 7 through April 4, 2001. Active duty personnel and
    DoD civilians assigned to U.S. Embassies and consulates were not included in
    our evaluation. Additionally, we did not include overseas U.S. citizens who
    were not employed by DoD in our selection criteria.

    At the selected installations, ships, and submarines, we used a three-phased
    approach to assess the overseas absentee ballot process. The first phase
    included administering 1,267 questionnaires to active duty personnel, DoD
    civilians, and their dependents. The questionnaires, one for active duty
    personnel, one for DoD civilians, and one for their dependents, were developed
    in coordination with GAO. A copy of the questionnaire for active duty
    personnel is at Appendix D. Similar questionnaires were used for DoD civilians
    and for dependents. The questionnaires were initially tested at one Navy
    installation.

    Because the DoD civilian and dependent responses to the questionnaires were
    similar, we combined the two groups for analysis. Nothing in the
    questionnaires or in the processing of the questionnaires allows us to identify a
    specific respondent or the specific installation, ship, submarine, or unit.

    Responses to the questionnaires provided information about absentee voters’
    perceptions of command emphasis of the voting assistance program,
    understanding of the absentee voting procedures, and problems encountered
    during the November 2000 election. Many of the questions were about
    respondents’ perceptions; the accuracy of perceptions cannot be validated.

    Questionnaire respondents also participated in discussion groups, where they
    were asked questions to expand on their experiences with the absentee ballot


                                        30
process. In addition to the questionnaires and discussion groups, we held
forums at each installation, ship, and submarine to provide all personnel the
opportunity to express their views on the absentee ballot process, and in some
cases, to complete a questionnaire.

The second phase of our assessment involved contacting various levels of voting
assistance officers regarding the implementation of the voting assistance
program. We interviewed Senior Installation Voting Officers at some locations
about controls over local absentee voting procedures; the level of assistance
provided by Unit Voting Assistance Officers; and the degree to which the voting
assistance program had been implemented. We also developed a nine-question
questionnaire for Unit Voting Assistance Officers (see Appendix E). We
administered 153 questionnaires to Unit Voting Assistance Officers. The
responses provided information related to Unit Voting Assistance Officer
training, awareness of and satisfaction with FVAP resources, and problems
encountered by voters supported by Unit Voting Assistance Officers.

The third phase involved a review of postal procedures as they related to the
handling of absentee balloting materials. We observed MPS operations at five
aerial mail terminals, four fleet mail centers, 23 military post offices, and nine
unit mailrooms. We reviewed mail processing reports at the U.S. Postal
Service first-class mail gateway at JFK Airport, New York, New York. We
reviewed first-class mail postmarking procedures and inspection reports at
military post offices and, at some locations, performed limited sampling of
inbound and outbound mail. We also reviewed Military Origin-Destination
Information System reports for mail received at military post offices and
Origin-Destination Information System reports for mail originating at MPS
locations. The reports we reviewed covered September 9 through
December 1, 2000. Although we reviewed postal procedures and operations at
the time of our visit, we could not validate how the ballots were handled by the
MPS during the November 2000 election. We did not review U.S. Postal
Service procedures for handling ballots.

Use of Computer-Processed Data. We relied on computer-processed data
from the DMDC to establish relative sizes of installation populations. Because
we are not projecting the questionnaire results, the accuracy of the DMDC
database is not relevant to the evaluation results and we did not evaluate its
accuracy.

Methodology. DMDC analysts supplied active duty, DoD civilian, and
dependent population data by installation as of September 2000. We divided the
installations in our sampling universe by theater and by Service, and then into
two strata to ensure coverage of large and small installations. For each Service,
we selected a large and a small installation, when possible, from both the
European and Pacific theaters. To ensure that the deployed population was
represented, we added selected ships, submarines, and units that were
homeported overseas or deployed during the November 2000 election.

For each of the installations, ships, and submarines, we requested that the
command select 45 active duty personnel (15 junior enlisted, paygrades E-1
through E-4; 15 senior enlisted, paygrades E-5 through E-9; and 15 officers) to


                                    31
respond to our questionnaire and participate in our discussion groups.
Additionally, at the installations, we requested that the command select 15
civilians, 15 dependents, and up to 15 Unit Voting Assistance Officers to
respond to our questionnaires and participate in our discussion groups.
Participation did not always include the full representation of the requested
personnel. See Appendix C for a list of installations, ships, and submarines
visited.

Analytical Approach. We forwarded completed questionnaires, including
those from the open forums, to GAO for processing. GAO contractor
technicians keyed the answers into a computer data file. The records in the data
file do not identify the participating personnel. GAO transmitted the data file,
which contained the responses to all four questionnaires (active duty, DoD
civilians, dependents, and Unit Voting Assistance Officers) to members of the
Quantitative Methods Division, Office of the Inspector General, DoD, for
analysis.

Our overall analytical approach for the responses was based on using the
information collected with a minimum of modification. We applied edits to
ensure the internal consistency of each individual’s responses. We performed
the edits and the analyses of the responses using the Statistical Analysis System,
version 8.1.

Specifically, we employed the following three edits to produce the results
contained in this report. All three of the edits apply to the responses of active
duty personnel, DoD civilians, and their dependents.

       •   If an individual indicated that he or she was unaware of a particular
           FVAP voting resource, then any satisfaction rating given for that
           resource was deleted.

       •   If an individual indicated that he or she did not use an absentee ballot
           to vote, then any response given to the difficulty of voting by
           absentee ballot was deleted (question 9 in Appendix D).

       •   If an individual indicated that he or she did not know who the Unit
           Voting Assistance Officer was, then any response given regarding the
           performance of the Unit Voting Assistance Officer was deleted.

We did not employ any edits on the Unit Voting Assistance Officer responses.

Evaluation Type, Dates, and Standards. We performed this program
evaluation from December 2000 through mid-May 2001 according to standards
implemented by the Inspector General, DoD. Our scope was limited in that we
did not include tests of management controls.

Contacts During the Evaluation. We visited or contacted individuals within
DoD and the U.S. Postal Service. Further details are available on request.




                                    32
Prior Coverage
    GAO has issued Report No. 01-470, “Elections: The Scope of Congressional
    Authority in Election Administration,” March 2001. GAO reports can be
    accessed over the Internet at http://www.gao.gov.




                                    33
Appendix B. Secretary of Defense Request
            Memorandum




                      34
Appendix C. Commands, Installations, Ships,
            and Submarines Visited

Office of the Secretary of Defense
American Forces Information Service, Alexandria, Virginia
Washington Headquarters Services, Washington, D.C.
Federal Voting Assistance Program, Washington, D.C.


Department of the Army
Secretary of the Army, Washington, D.C.
   Chief of Public Affairs, Washington, D.C.
      Army Broadcasting Service, Alexandria, Virginia
Commanding General, U.S. Army, Europe, and Seventh Army, Heidelberg, Germany
Commanding General, Eighth U.S. Army, U.S. Yongsan Garrison, Seoul, Republic of
   Korea
Commanding General, U.S. Army, Japan, Camp Zama, Japan
U.S. Total Army Personnel Command, Alexandria, Virginia
   The Adjutant General Directorate, Alexandria, Virginia
      Army Voting Action Office, Washington, D.C.
   Military Postal Service Agency, Alexandria, Virginia
1st Personnel Command, Heidelberg, Germany
Soldier Support Institute, Fort Jackson, South Carolina
Joint Military Postal Activity, Atlantic, JFK International Airport, New York
222nd Base Support Battalion, Baumholder, Germany*
293rd Base Support Battalion, Mannheim, Germany*
Camp Eagle, Republic of Korea*
Camp Long, Republic of Korea*
Camp Page, Republic of Korea*
Camp Zama, Japan*
Fort Bragg, North Carolina*


Department of the Navy
Secretary of the Navy, Washington, D.C.
   Office of Information, Washington, D.C.
      Naval Media Center, Washington, D.C.


*Site where questionnaires were administered; participating personnel had been stationed or deployed
 overseas during the November 2000 election.



                                                  35
Department of the Navy (cont’d)
Headquarters, U.S. Marine Corps, Quantico, Virginia
   Marine Corps Voting Action Office, Quantico, Virginia
Commander in Chief, U.S. Naval Forces Europe, London, United Kingdom
Commander in Chief, U.S. Pacific Fleet, Pearl Harbor, Hawaii
Commander, Fleet Air Mediterranean, Naples, Italy
Navy Personnel Command, Millington, Tennessee
   Navy Voting Action Office, Millington, Tennessee
Fleet Mail Center, Naples, Italy
Fleet Mail Center, Sigonella, Sicily
Fleet Mail Center, Yokahama, Japan
Fleet Mail Center, Yokota, Japan
Fleet Mail Center, West Ruislip, United Kingdom
Military Post Office, London, United Kingdom
Fleet Activities Yokosuka, Japan*
Marine Corps Air Station Iwakuni, Japan*
Marine Corps Base Camp Smedley D. Butler, Okinawa, Japan*
Marine Corps Base Camp Pendleton, California*
Naval Air Facility Atsugi, Japan*
Naval Air Station Sigonella, Sicily*
Naval Support Activity Gaeta, Italy*
USS Albany (SSN 753)*
USS Briscoe (DD 977)*
USS Helena (SSN 725)*
USS Hopper (DDG 70)*
USS Kitty Hawk (CV 63)*
USS La Salle (AGF 3)*
USS Milius (DDG 69)*


Department of the Air Force
Secretary of the Air Force, Washington, D.C.
   Office of Public Affairs, Washington, D.C.
      Air Force News Agency, Kelly Air Force Base, Texas
Commander, U.S. Air Forces in Europe, Ramstein Air Base, Germany
Air Force Personnel Center, Randolph Air Force Base, Texas
   Air Force Voting Action Office, Randolph Air Force Base, Texas
Aerial Mail Terminal, Alconbury, United Kingdom
Aerial Mail Terminal, Frankfurt, Germany
Aerial Mail Terminal, Kadena, Japan
Aerial Mail Terminal, Seoul, Republic of Korea
Aerial Mail Terminal, Yokota, Japan

*Site where questionnaires were administered; participating personnel had been stationed or deployed
 overseas during the November 2000 election.




                                                  36
Department of the Air Force (cont’d)
Mail Control Activity, Naha, Japan
Mail Control Activity, Tokyo, Japan
Beale Air Force Base, California*
Incirlik Air Base, Turkey*
Kadena Air Base, Okinawa, Japan*
Kunsan Air Base, Republic of Korea*
Ramstein Air Base, Ramstein, Germany*
Royal Air Force Alconbury, United Kingdom*


Unified Commands
Commander in Chief, U.S. European Command, Stuttgart-Vaihingen, Germany
Commander in Chief, U.S. Pacific Command, Camp H.M. Smith, Hawaii
U.S. Forces Japan, Yokota Air Base, Japan
  U.S. Forces Korea, U.S. Yongsan Garrison, Seoul, Republic of Korea


Non-Defense Federal Organization
General Accounting Office




*Site where questionnaires were administered; participating personnel had been stationed or deployed
 overseas during the November 2000 election.



                                                  37
The following two appendices are located in separate PDF files:

Appendix D. Active Duty Overseas Absentee Ballot Questionnaire
(pages 38-40)

"http://www.dodig.osd.mil/audit/reports/fy01/01-145-D.pdf" (516KB)


Appendix E. Unit Voting Assistance Officer Overseas Absentee Ballot
Questionnaire (pages 41-42)

"http://www.dodig.osd.mil/audit/reports/fy01/01-145-E.pdf" (549KB)
Appendix F. Military Postal Service Procedures
   The MPS Agency manages the MPS, which processes mail for DoD, members
   of the Armed Forces, and other authorized agencies and individuals. Mail
   service is provided through military post offices operated by the Services as an
   extension of the U.S. Postal Service. Military post offices are established at
   most overseas installations and on larger ships. Balloting materials are treated
   as first-class mail.

   Mail from the United States enters the MPS when it is received at overseas MPS
   aerial mail terminals (terminals) or fleet mail centers (centers) for distribution to
   military post offices. The MPS transports outgoing mail from military post
   offices to terminals or centers, where the mail is delivered to authorized
   commercial air carriers under contract with the U.S. Postal Service for delivery
   to stateside destinations. It is important to note that the MPS does not control
   mail from the United States until it arrives at a terminal or center. Likewise,
   the MPS relinquishes control of mail originating at a military post office once
   the mail leaves the terminal or center.

   Mail Received by the Military Post Offices. First-class mail, including
   absentee ballots, that is destined for overseas military post offices is delivered to
   the U.S. Postal Service gateway at either JFK International Airport, New York,
   New York, or San Francisco International Airport, San Francisco, California,
   by the U.S. Postal Service. Mail is then sorted by ZIP Code, packaged in letter
   trays for overseas delivery, and flown to a pre-designated overseas commercial
   airport for transfer to a terminal or center.

   The terminal or center sorts and distributes the mail to a military post office at
   an installation or routes the mail to a ship’s scheduled port of call or to a
   deployed unit. Military Origin-Destination Information System (MODIS)
   reports for mail received by the MPS from September 9 through
   December 1, 2000, show the average number of days it took for first-class mail
   to transit from the United States to overseas military post offices. The average
   number of days it took for mail to travel from the JFK gateway to various
   terminals and centers was 1.9 days or less during that period. The average
   number of days it took for mail to travel from the San Francisco gateway to
   various terminals and centers was 1.8 days or less for the same period. The
   MODIS reports also show that the average number of transit days from the
   terminals or centers to the military post offices was 3 days or less. None of
   those averages would have significantly delayed the processing of balloting
   materials to active duty, DoD civilian, or dependent voters. However, the
   MODIS reports were for shore-based installations and did not include the time it
   takes to get the mail from the final shore-based installation to ships and
   submarines. Unique ship issues are discussed in the Finding section in this
   report. Although we cannot reconstruct the actual handling of balloting
   materials for the November 2000 election, we conducted spot checks of mail
   received at six military post offices during our evaluation that showed there
   were no significant delays impacting mail delivery to military post offices.



                                        43
Mail Originating From Military Post Offices. Procedures for processing
first-class mail originating at an overseas military post office were consistent
with DoD Manual 4525.6-M, “DoD Postal Manual,” December 1989, that
requires expeditious handling and postmarks with dates. However, it was not
possible to validate the actual handling of balloting materials during the
November 2000 election or quantify how much balloting material, if any, was
processed without the required postmark. The GAO is checking, as part of its
work with the States, whether the States disqualified ballots because they were
received without a postmark.

Our limited samples of outbound mail on hand at three military post offices
showed that mail was generally postmarked with the current date. Because
postmarking involves humans and machines, it is not a perfect process and some
mail will be processed erroneously without a postmark. Additionally, because
most balloting materials are marked “U.S. Postage Paid,” some MPS postal
clerks could erroneously believe that postmarks are not needed, despite the DoD
Postal Manual requirements. MPS Agency personnel acknowledged that
first-class mail could be processed without a postmark and date, but stated it was
not a systemic problem in the MPS.

First-class mail destined for the United States from military post offices is
transported to a terminal or center on regularly scheduled routes. After
consolidation by the terminal or center, mail is transferred to commercial
aircraft for regularly scheduled flights to the postal gateway at New York or San
Francisco. Reviews at the terminals and centers did not disclose backlogs or
extended delays and there were no discrepancy reports prior to the election
identifying delayed mail. Our review of the handling of mail originating at
military post offices did not identify systemic MPS weaknesses that would have
unreasonably delayed the delivery of balloting material.

Unit Mail Clerks. Some unit members do not receive mail at the military post
offices. Instead, unit mail clerks pick up mail from the military post office and
distribute the mail to unit members. Although not under the operational control
of the MPS, the unit mail clerks are part of the postal delivery system. At three
Army locations, we visited nine units with mailrooms and mail clerks.
Although mail was being delivered in a timely manner to recipients located at
the units, the unit mail clerks at two of the mailrooms did not promptly send
undeliverable mail to a forwarding address or back to the sender. For purposes
of this report, undeliverable mail is mail that cannot be delivered as addressed
and must be forwarded to the addressee or returned to the sender. One
mailroom that we visited had 112 pieces of undeliverable mail. One piece dated
back 9 months, to May 2000. At another unit mailroom, there was more than
one full letter tray of undeliverable mail. None of the mail was November 2000
balloting material. We notified unit commanders of the undeliverable mail
backlogs. They advised us the backlogged mail would be forwarded or returned
promptly.

Systems for Measuring the Transit Time of Mail. Transit time for mail to
and from overseas military post offices is calculated using a U.S. Postal Service
measuring system called Origin-Destination Information System (ODIS) and
MODIS. ODIS measures the average transit time for mail originating in the


                                    44
United States to the U.S. Postal Service gateways by noting the postmark dates
on a sample of incoming mail. The MODIS measuring system uses a
date-barcoded label affixed to the outside of a processed tray of mail. MODIS
provides the average transit time for a processed tray of mail from the gateway
to the military post office. The ODIS and MODIS reports represent average
delivery times for mail. Individual pieces of mail could take significantly longer
than the averages.

Neither ODIS nor MODIS records the time U.S. Postal Service employees at
the gateways spend handling and processing the mail that is destined for
overseas military post offices. Although we have no reason to believe that
unrecorded time was significant enough to have caused unreasonable delays of
balloting materials, we cannot reconstruct the handling of balloting materials at
the gateways for the November 2000 election.

Transit time for mail originating in a military post office destined for the United
States is measured using the ODIS measuring system. The ODIS data shows the
time from the originating post office, including military post offices, to the post
office serving the addressee.




                                    45
Appendix G. Absentee Voter Assistance Best
            Practices
   Several installations, ships, and submarines had developed excellent initiatives
   to encourage participation in the November 2000 election and to assist potential
   absentee voters in understanding the process. The following are some of those
   best practices.

   Command Emphasis. At an Air Force installation in Turkey, a Senior
   Installation Voting Officer and two Assistant Installation Voting Officers were
   appointed by the installation commanding officer. The commanding officer
   required mandatory attendance at Unit Voting Assistance Officer training
   sessions and ensured the Senior Installation Voting Officer attended
   FVAP-sponsored training. Installation Unit Voting Assistance Officers went
   door-to-door at the installation housing area and delivered “in-hand” FPCAs.
   They also established an installation web site for voter information and the
   Senior Installation Voting Officer established an installation-wide voting
   awareness committee with representatives from all installation departments.

   At a Navy installation in Italy, the commanding officer and the Senior
   Installation Voting Officer were very supportive of FVAP. The Senior
   Installation Voting Officer contacted each unit and tenant organization to offer
   voting assistance support. In 2000, the Unit Voting Assistance Officers
   conducted voter awareness campaigns at morale, recreation, and welfare events;
   at unit-sponsored cookouts; and in the installation housing areas. All of the
   installation unit and tenant personnel had electronic access to the Senior
   Installation Voting Officer and her assistant through the installation intranet and
   installation voting information web site. The Senior Installation Voting Officer
   also set up and staffed voter registration and information tables at the local DoD
   school, two large on-base festivals, and a musical concert.

   Encouragement to Vote. The Commander, U.S. Forces Korea, videotaped a
   commercial that focused on voting. The commercial aired on both radio and
   television from July through November 2000. The commander reminded active
   duty personnel, DoD civilians, and their dependents of their right to vote and
   encouraged individuals to participate in the process.

   At an Army location in Korea, a ninth-grade dependent developed a
   command-supported, two-part school program to assist those eligible to vote.
   The first part was to hand out FPCAs to teachers, staff, and high school seniors.
   The second part was to set up a table in front of the Post Exchange on weekends
   during the spring semester. The student and others requested FVAP materials
   and supplemented FVAP materials with their own announcements and posters.

   On a Navy ship, the voting assistance officer held a “Voting Day” on
   September 9, 2000, 2 days before a scheduled port visit. Due to mission
   requirements, the voting assistance officer anticipated that the port visit might be
   the last opportunity to offload first-class mail, including absentee ballots, in time
   to be counted. The ship’s crew members were informed of their voting


                                        46
opportunities via electronic mail, shipboard announcements, and the ship’s plan
of the day. Crew members were encouraged to stop by the dining area
throughout the day for information and balloting materials, including Federal
Write-In Absentee Ballots.

Awareness and Availability of FVAP Resources. At an Air Force installation
in England, all of the active duty personnel, DoD civilians, and their dependents
have access to the installation intranet. During 2000, various public service
announcements and advertisements were placed on the intranet. In addition,
installation active duty personnel have electronic mail addresses and received
electronic mail about voting, including voter registration announcements,
guidance on voter registration procedures, and other pertinent information. The
installation post office also displayed public service voting announcements and
maintained a supply of FPCAs and FVAP 2000-01 Voting Assistance Guides.
Additionally, the installation tourist information center publicized the November
2000 election and urged everyone to exercise their right to vote.




                                   47
Appendix H. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Force Management Policy)
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Assistant Secretary of Defense (Reserve Affairs)
Director of Administration and Management

Department of the Army
Inspector General, Department of the Army
Auditor General, Department of the Army
The Adjutant General, Department of the Army
Military Postal Service Agency

Department of the Navy
Auditor General, Department of the Navy
Superintendent, Naval Post Graduate School
Naval Inspector General
  Deputy Naval Inspector General for Marine Corps Matters
Naval Personnel Command
Marine Corps Deputy Commandant for Manpower and Reserve Affairs

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Headquarters, Air Force Director of Personnel Resources

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                         48
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Subcommittee on Military Personnel, Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Subcommittee on Military Personnel, Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         49
Management Comments from the Assistant Secretary of Defense
(Force Management Policy) (pages 50-53) are located in a separate file:

"http://www.dodig.osd.mil/audit/reports/fy01/01-145CMTS.pdf" (765KB)
Evaluation Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, managed the project and prepared this
report. In addition, personnel from the Quantitative Methods Division, Office
of the Inspector General, DoD, provided technical assistance.
